Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




TEXAS IMPROPERLY CLAIMED SOME
 CHILD CARE AND DEVELOPMENT
        TARGETED FUNDS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-06-13-00038
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

  Texas did not comply with Federal requirements for the use of almost $15 million in Child
  Care and Development Fund targeted funds for fiscal year 2010.


WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds known as the Infant and Toddler, Quality, and School Age Resource and Referral funds.
These targeted funds are used for activities that improve the availability, quality, and
affordability of childcare and to support the administration of these activities. The Federal
Government provides 100 percent of these funds. Previous Office of Inspector General reviews
found that other States did not always comply with Federal requirements when claiming targeted
funds for reimbursement.

The objective of this review was to determine whether the Texas Workforce Commission (State
agency) complied with Federal requirements for the use of CCDF targeted funds for Federal
reimbursement for Federal fiscal year (FY) 2010.

BACKGROUND

Under the CCDF program, States have considerable latitude in administering and implementing
their childcare programs. Each State must develop, and submit to the Administration for
Children and Families (ACF) for approval, a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 FYs). Program requirements state
that a State agency has 2 FYs to obligate CCDF funds and a third FY to liquidate those funds.

The State plan includes payment incentives of at least 5 percent (enhanced portion) above the
daily maximum reimbursement rates that are offered to childcare providers to encourage a higher
quality of childcare. Only the activities associated with the enhanced portion that have met
quality requirements qualify as activities to improve the quality of childcare and may be claimed
for reimbursement. States report expenditures of targeted funds on the quarterly Child Care and
Development ACF-696 Financial Report (ACF-696 report).

In addition, the State plan must designate a lead agency responsible for administering childcare
programs. In Texas, the State agency is the lead agency and is required to oversee the
expenditure of funds by contractors, grantees, and other Texas government agencies to ensure
that the funds are expended in accordance with Federal requirements.

The State agency claimed CCDF targeted funds totaling $31,777,216 on its ACF-696 report for
FY 2010. We reviewed all of the targeted fund expenditures that the State agency claimed.

WHAT WE FOUND

Of the $31,777,216 that we reviewed, the State agency complied with Federal requirements for



Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)            i
the use of $16,810,087 in CCDF targeted funds for FY 2010. However, the State agency did not
comply with Federal requirements for the use of the remaining $14,967,129. Specifically, the
State agency (1) improperly claimed $14,909,333 of expenditures that included nontargeted fund
activities, (2) improperly claimed $32,666 in expenditures that were incurred before the start of
the funding period, and (3) did not refund $25,130 to the Federal Government that remained
unliquidated after the liquidation period had ended. These errors occurred because the State
agency did not have policies and procedures in place to ensure that only expenditures that
improve the quality of childcare are reported and to adequately oversee the obligation and
liquidation of the targeted funds.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund to the Federal Government $14,909,333 for expenditures that were not for targeted
        fund activities or work with ACF to determine whether any of the $14,909,333 was
        allowable,

    •   refund to the Federal Government $32,666 for targeted funds that were incurred before
        the start of the funding period,

    •   refund to the Federal Government $25,130 for targeted funds that were not liquidated in
        the required timeframe, and

    •   develop policies and procedures to (1) ensure that it claims only the enhanced portion of
        payments made to providers that have exceeded licensing standards and (2) strengthen
        monitoring of CCDF targeted funds to ensure that expenditures are properly obligated
        and liquidated.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency agreed with our recommendations to
refund $32,666 for targeted funds that were incurred before the start of the funding period and
$25,130 for targeted funds that were not liquidated in the required timeframe, stating that it had
already refunded the money. The State agency disagreed with our recommendation to refund the
$14,909,333 for expenditures that were not for targeted fund activities but agreed to work with ACF
to determine whether the expenditures were allowable. The State agency agreed to strengthen
monitoring of CCDF targeted funds but did not agree with the recommendation to develop policies
and procedures to ensure that it claims only the enhanced portion of payments to providers that have
exceeded licensing standards. Nothing in the State agency’s comments caused us to change our
findings or recommendations.




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)                ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1

           How We Conducted This Review................................................................................... 2

FINDINGS .................................................................................................................................. 2

           The State Agency Improperly Claimed Nontargeted Fund Expenditures ...................... 2

           The State Agency Improperly Claimed Expenditures Incurred
            Before the Start of the Funding Period ........................................................................ 3

           The State Agency Did Not Refund Unliquidated Targeted Funds ................................. 3

           The State Agency Did Not Have Policies and Procedures in Place ............................... 3

RECOMMENDATIONS ............................................................................................................ 3

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE............................................................... 4

APPENDIXES

           A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS .............................. 6

           B: AUDIT SCOPE AND METHODOLOGY ............................................................... 7

           C: FEDERAL REQUIREMENTS RELATED TO CHILD CARE
              AND DEVEOPMENT FUND TARGETED FUNDS ............................................... 9

           D: STATE AGENCY COMMENTS ........................................................................... 11




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)                                                            iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds that are administered at the Federal level by the U.S. Department of Health and Human
Services, Administration for Children and Families (ACF), and that are known as the Infant and
Toddler, Quality, and School Age Resource and Referral funds. These targeted funds are used
for activities that improve the availability, quality, and affordability of childcare and to support
the administration of these activities. The Federal Government provides 100 percent of these
funds. Previous Office of Inspector General reviews found that other States did not always
comply with Federal requirements when claiming targeted funds for reimbursement.
Appendix A contains a list of Office of Inspector General reports related to targeted funds.

OBJECTIVE

Our objective was to determine whether the Texas Workforce Commission (State agency) complied
with Federal requirements for the use of CCDF targeted funds for Federal reimbursement for
Federal fiscal year (FY) 2010.

BACKGROUND

Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e.,
2 FYs). Program requirements state that a State agency has 2 FYs to obligate CCDF funds and a
third FY to liquidate those funds. The following table shows the obligation and liquidation
periods for the FY covered by our review.

                           Table: Obligation and Liquidation Periods

                               Obligation Period Obligation Period Liquidation Period
                                  Start Date         End Date          End Date
               FY
              2010                   10/01/09               9/30/11                 9/30/12

In addition, the State plan must designate a lead agency responsible for administering childcare
programs. In Texas, the State agency is the lead agency and is required to oversee the
expenditure of funds by contractors, grantees, and other Texas government agencies to ensure
that the funds are expended in accordance with Federal requirements. The State agency
contracts with these entities and considers the funds obligated when the contracts are signed.

States are required to report expenditures of targeted funds on the quarterly Child Care and
Development ACF-696 Financial Report (ACF-696 report), which is a cumulative report for the
FY.




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)            1
HOW WE CONDUCTED THIS REVIEW

The State agency claimed CCDF targeted funds totaling $31,777,216 on its ACF-696 report for
FY 2010. We reviewed all of the targeted fund expenditures that the State agency claimed.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains details of our audit scope and methodology, and Appendix C contains
details on the Federal and State requirements related to the CCDF targeted funds.

                                                      FINDINGS

Of the $31,777,216 that we reviewed, the State agency complied with Federal requirements for
the use of $16,810,087 in CCDF targeted funds for FY 2010. However, the State agency did not
comply with Federal requirements for the use of the remaining $14,967,129. Specifically, the
State agency (1) improperly claimed $14,909,333 of expenditures that included nontargeted fund
activities, (2) improperly claimed $32,666 in expenditures that were incurred before the start of
the funding period, and (3) did not refund $25,130 to the Federal Government that remained
unliquidated after the liquidation period had ended. These errors occurred because the State
agency did not have policies and procedures in place to ensure that only expenditures that
improve the quality of childcare are reported and to adequately oversee the obligation and
liquidation of the targeted funds.

THE STATE AGENCY IMPROPERLY CLAIMED
NONTARGETED FUND EXPENDITURES

The State agency must describe how it will use the targeted funds, and the targeted funds must be
used to improve the quality of childcare (45 CFR § 98.16(h)). The State agency identified these
activities in the ACF-approved CCDF State plan. The CCDF State plan allowed targeted funds
to be used for payment incentives of at least 5 percent (enhanced portion) above the daily
maximum reimbursement rates that were offered to providers that voluntarily exceeded the
State’s minimum licensing standards for childcare facilities. Therefore, only the enhanced
portion qualifies to be reported in the correct category of funding for Infants and Toddlers
(line 1(c)), Quality Expansion (line 1(d)), and School Age Resource and Referral (line 1(e)) of
the ACF-696.

The State agency claimed $14,909,333 in expenditures for nontargeted fund activities. 1
Specifically, for providers approved to receive enhanced payments, the State agency claimed
targeted funds for total direct care expenditures rather than the enhanced portion. This occurred
because the State agency believed that the total payment made to providers paid at enhanced

1
    Nontargeted fund activity expenditures are for direct care; they do not include the enhanced portion.



Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)                     2
rates was allowable as a targeted fund expenditure; therefore, it did not implement a system that
enabled it to calculate the enhanced portion of the payment. When informed that only the
enhanced portion could be claimed, the State agency was unable to calculate that portion. As a
result, the State agency improperly reported expenditures of $10,941,769 on line 1(c),
$2,035,048 on line 1(d), and $1,932,516 on line 1(e).

THE STATE AGENCY IMPROPERLY CLAIMED EXPENDITURES INCURRED
BEFORE THE START OF THE FUNDING PERIOD

Federal regulations specify that CCDF funds must be obligated in the FY in which the funds
were awarded or in the succeeding FY and that any funds not obligated during this period will
revert to the Federal Government (45 CFR §§ 98.60(d)(1) and (7)). Further, CCDF discretionary
funds must be used to carry out the State plan in the period for which the funds are made
available (45 CFR § 98.64(b)).

The State agency contracted with the Texas Department of Family Protective Services (DFPS) to
provide quality improvement activities, including the licensing, monitoring, and regulation of
childcare facilities. The State agency claimed $14,640,441 in targeted fund expenditures for
these services for FY 2010. However, the amount claimed included an expenditure of $32,666
that DFPS incurred in September 2009. During our review, DFPS stated that it had incorrectly
identified the expenditures for FY 2010.

THE STATE AGENCY DID NOT REFUND UNLIQUIDATED TARGETED FUNDS

CCDF funds not liquidated within 1 year of the end of the 2-year obligation period will revert to
the Federal Government (45 CFR §§ 98.60(d)(1) and (7)).

For FY 2010, the State agency entered into a $1 million contract with the Texas Health and
Human Services Commission (HHSC) to provide childcare and education resource and referral
services statewide. Although the State agency properly obligated contract funds, it did not
liquidate $25,130 of targeted funds in the required timeframe.

THE STATE AGENCY DID NOT HAVE POLICIES AND PROCEDURES IN PLACE

The State agency did not have policies and procedures in place to calculate and claim only the
enhanced portion of payments made to providers that exceeded the State’s minimum licensing
standards for childcare facilities. In addition, the State agency did not have policies and
procedures in place to adequately monitor the obligation and liquidation of the targeted funds. In
the absence of necessary policies and procedures, the State agency could not determine whether
contractors liquidated all grant-year funds or improperly included prior-year expenditures.
Better monitoring would have helped ensure that the targeted funds were being obligated and
liquidated according to the timeframes specified in Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:



Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)             3
    •   refund to the Federal Government $14,909,333 for expenditures that were not for targeted
        fund activities or work with ACF to determine whether any of the $14,909,333 was
        allowable,

    •   refund to the Federal Government $32,666 for targeted funds that were incurred before
        the start of the funding period,

    •   refund to the Federal Government $25,130 for targeted funds that were not liquidated in
        the required timeframe, and

    •   develop policies and procedures to (1) ensure that it claims only the enhanced portion of
        payments made to providers that have exceeded the State’s minimum licensing standards
        for childcare facilities and (2) strengthen monitoring of CCDF targeted funds to ensure
        that expenditures are properly obligated and liquidated.

                           STATE AGENCY COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations to
refund $32,666 for targeted funds that were incurred before the start of the funding period and
$25,130 for targeted funds that were not liquidated in the required timeframe, stating that it had
already refunded the money. The State agency disagreed with our recommendation to refund
the $14,909,333 for expenditures that were not for targeted fund activities but agreed to work
with ACF to determine whether the expenditures were allowable. The State agency said that all
direct care expenditures paid to providers qualified for enhanced payments. To support its
contention, the State agency cited examples in which ACF has stated that targeted funds may be
used for higher reimbursement for the care of children and toddlers. In addition, the State
agency said that it has historically claimed all direct care expenditures for quality providers and
that ACF has not taken exception. While the State admitted that there is a differential in rates for
designated child care vendors and those that are not designated, the State said that there is no
“enhanced portion” of their rates or their reimbursements, making the calculation of such an
amount “a hypothetical exercise.”
The State agency agreed to strengthen monitoring of CCDF targeted funds but did not agree with
the recommendation to develop policies and procedures to ensure that it claims only the
enhanced portion of payments to providers that have exceeded licensing standards. However,
the State agency said that it would work with ACF on this issue.
The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The Texas CCDF State plan allowed targeted funds to be used to
encourage providers to obtain quality certifications by offering incentives. The plan described


Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)            4
incentives “such as purchasing materials, scholarships, technical assistance, mentoring, and
training” and “enhanced reimbursement rates” that by law “must be 5% above the daily
maximum reimbursement rates.” We disagree with the State’s interpretation that the entire
amount of direct child care services paid to providers who achieved a quality certification in a
Statewide program are allowable as targeted fund activities. As a general matter, these targeted
funds are not intended to provide direct child care services. Rather, as stated in section 658G of
the Child Care and Development Block Grant Act of 1990, as amended, and incorporated by
reference in the FY 2010 CCDF appropriation, these funds are available for specified “activities
designed to improve the quality and availability of child care (such as resource and referral
services).” The CCDF regulation at 45 CFR § 98.51(a) gives examples of quality activities. One
of the activities to improve the quality of childcare services is “improving salaries and other
compensation (such as fringe benefits) for full- and part-time staff ....” Targeted funds are to be
used for quality incentives, such as an increase in the hourly rate, a bonus, additional training, or
other fringe benefits. Therefore, targeted funds may be used only for the enhanced portion of the
provider rate that can be attributed to meeting higher quality reimbursements.




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)             5
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                      Report
                           Report Title                                                   Date Issued
                                                                      Number
    South Carolina Properly Obligated and Liquidated
    Targeted Funds Under the Child Care and                       A-04-13-01021             4/25/14
    Development Fund Program

    Arizona Improperly Claimed Some Child Care and
                                                                  A-09-12-01004             4/2/14
    Development Targeted Funds

    Virginia Properly Obligated and Liquidated Most
    Targeted Funds Under the Child Care and                       A-03-12-00251            10/17/13
    Development Fund Program
    Louisiana Improperly Claimed Some Child Care and
                                                                   A-06-12-00057            9/30/13
    Development Fund Targeted Funds
    Michigan Properly Obligated and Liquidated Targeted
    Funds Under the Child Care and Development Fund                A-05-12-00062            4/26/13
    Program
    Nebraska Improperly Claimed Some Child Care and
                                                                   A-07-12-03175            4/30/13
    Development Targeted Funds
    Ohio Properly Obligated and Liquidated Targeted
    Funds Under the Child Care and Development Fund                A-05-12-00061            4/26/13
    Program
    Connecticut Properly Obligated and Liquidated
    Targeted Funds Under the Child Care and                        A-01-12-02505            2/21/13
    Development Fund Program
    Iowa Improperly Claimed Some Child Care and
                                                                   A-07-11-03163            3/28/12
    Development Targeted Funds
    Review of Unexpended Infant and Toddler Targeted
    Funds and Quality Targeted Funds Claimed by the
                                                                   A-07-07-00231            8/21/08
    Iowa Department of Human Services for Fiscal Years
    1998–2003




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)                 6
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed all of the $31,777,216 in CCDF targeted fund expenditures the State agency
claimed on its ACF-696 reports for FY 2010, which included $16,505,752 of targeted fund
expenditures that the State agency disbursed to DFPS, the Texas Education Agency, and HHSC.
We did not perform a detailed review of the State agency’s internal controls because our
objective did not require us to do so. We limited our review to the controls related to the
obligation and liquidation of the targeted funds.

We conducted fieldwork at the State agency, DFPS, and two local workforce development
boards in Austin, Texas, from June through October 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
        laws and the approved Texas CCDF State plan;

    •   reviewed the ACF-696 report for FY 2010 to determine the amount of targeted funds that
        the State agency claimed;

    •   interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
        understanding of how the reports were prepared, how the targeted funds were reported,
        and what documentation was maintained to support expenditures on the reports;

    •   reviewed the State agency’s contracts with contractors, grantees, and other Texas
        government agencies to determine whether the dates on which the contracts were signed
        complied with the obligation requirements of the targeted funds for FY 2010;

    •   reviewed the dates of State agency payments to contractors, grantees, and other Texas
        government agencies to determine whether they complied with liquidation requirements
        of the targeted funds for FY 2010;

    •   reviewed the documentation the State agency used to prepare the ACF-696 reports;

    •   compared the accounting documentation the State agency maintained with expenditures
        of targeted funds for direct childcare services;

    •   reviewed documentation that contractors submitted to the State agency in support of the
        expenditure of targeted funds; and

    •   discussed the results of our review with State agency officials on October 31, 2013.




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)           7
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)        8
       APPENDIX C: FEDERAL REQUIREMENTS RELATED TO CHILD CARE
                AND DEVELOPMENT FUND TARGETED FUNDS

FEDERAL LAWS

Discretionary funding for the Child Care and Development Fund is authorized by the Child Care
and Development Block Grant Act of 1990, as amended (CCDBG). Section 658G of the
CCDBG (42 USC § 9858e) provides that States must use certain discretionary funds for
“activities designed to improve the quality and availability of child care (such as resource and
referral services).”

Discretionary child care funds are annually appropriated, and the Consolidated Appropriations
Act, 2010, P.L. No. 111-117, Div. D, Title II, 123 Stat. 3250 (December 16, 2009), appropriated
targeted childcare funds as follows: “Provided further, That, in addition to the amounts required
to be reserved by the States under section 658G, $271,401,000 shall be reserved by the States for
activities authorized under section 658G, of which $99,534,000 shall be for activities that
improve the quality of infant and toddler care.”

FUND OBLIGATION REGULATIONS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 98.60(d)(7)) state: “Any funds not obligated during the obligation
period specified in paragraph (d) of this section will revert to the Federal government. Any
funds not liquidated by the end of the applicable liquidation period specified in paragraph (d) of
this section will also revert to the Federal government.”

ACTIVITY REGULATIONS AND STATE PLAN PROVISIONS

Federal regulations (45 CFR § 98.16(h)) require that the approved CCDF State plan include
“[a] description of the activities to provide comprehensive consumer education, to increase
parental choice, and to improve the quality and availability of child care, pursuant to [45 CFR]
§ 98.51.”

Relevant passages from the State agency’s CCDF State plan for FY 2010 state:

        Part 1 Section 5.1

        The ... [State agency] contracts with each of the state’s 28 Local Workforce
        Development Boards (Boards) … to administer CCDF services. State law
        prohibits Boards from directly delivering services. Boards competitively procure
        child care contractors to:




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)            9
        •   determine eligibility for CCDF services for families not receiving Temporary
            Assistance for Needy Families (TANF), Child Protective Services (CPS), or
            Supplemental Nutrition Assistance Program Employment and Training
            (SNAP E&T) services;

        •   provide information to assist parents in making informed choices related to
            their children’s care;

        •   authorize child care subsidies with the provider each parent chooses; and

        •   implement services to improve the quality and availability of child care.

        Part 3 Section 2.5

        [The State agency] does not establish statewide reimbursement rates. [The State
        agency] rules require that Boards establish maximum reimbursement rates based
        on local factors, including, but not limited to, the Market Rate Survey provided by
        [the State agency]. Each Board has a full-day rate and a part-day rate for each of
        the four age groups (infants, toddlers, preschool, and school-age) in each of the
        three regulated (licensed child care centers, licensed child care homes, and
        registered child care homes) and one unregulated (relative) provider facility types.

        Part 3 Section 2.8

        [The State agency] maintains the Texas Rising Star Provider (TRSP) Certification
        system. TRSP-certified facilities voluntarily exceed the state’s regulatory
        standards for health and safety, group size, child-to-caregiver ratio, caregiver
        training, and age-appropriate curricula. State law requires that TRS facilities
        receive at least a 5% higher reimbursement rate than the rates for non-TRS
        facilities for the same category of care.

        Part 5 Section 1.6

        Boards have established enhanced reimbursement rates for those providers
        participating in the TRS program. By law, enhanced rates must be 5% above the
        daily maximum reimbursement rates. In addition, Boards provide additional
        incentives to those facilities that are certified, such as purchasing materials,
        scholarships, technical assistance, mentoring, and training.




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)        10
                           APPENDIX D: STATE AGENCY COMMENTS 


        Texas Workforce Commission                                                                                                      AndF\.·s Ak-:mlar. Ch;linn:m
                                                                                                                                        ( 'um mi.;~i.._m,;r ~ t·pn:.;c:n l in~
        A Member of Texas Workforce Solutions                                                                                           ltl~o.·l--lhlt~;




              May 28,2014                                                                                                               RcmulU c. ;. (. '•ml!ktut~
                                                                                                                                        ( \~umi~\li-l'lfl!.':r R"~r\:~·min$
                                                                                                                                        t.ut""

                                                                                                                                        Hc)J)\; A l s.tlr~· d~
                                                                                                                                        t 'C'nlnlt.'i:O OIIIIII,'I' ~l'pn:,.,.,_'fllil~

              Ms. Patricia Wheeler                                                                                                      t:mplu, .._.,...

              Regional Inspector General for Audit Services                                                                             I.;U,') 1•.. n.·mpl;.:·
              Office of Audit Services, Region VI                                                                                       I.M......·u l i \.:l>ih.>t<fvr

              Office of Inspector General
              U.S. Department of Health and Human Services
              1100 Commerce Street, Room 632
              Dallas, TX 75242

              Re:     Draft Report Number A·OG-13-{)0038

              Dear Ms. Wheeler:

              Texas Workforce Commission (TWC) responses to draft report (A-06-13-00038) prepared by the U.S.
              Department of Health and Human Services, Office of Inspector Genera l (OIG) are enclosed.

              We disagree w ith the recommendation to refund $14.9 million. However, we do agree with the
              recommendation to work with t he Adm inistration for Children and Families (ACF) to verify TWC's
              reported expenditures are allowable for targeted child care quality activities. The enclosed
              responses provide the necessary details supporting why the reported targeted chi ld care
              expenditures are appropriate. We request that OIG not finalize its draft report until TWC has the
              opportunity to work with ACF to resolve this matter.

              We agree with the two recommendations to refund $32,666 incurred before the start of the
              funding period, and $25,130 not liquidated in the required timeframe. These amounts have already
              been refunded as of August 26, 2013. We also agree with the recommendation to strengthening
              monitoring of CCDF targeted funds, particularly when contracting CCDF grant funds with another
              state agency.

              We are confident that any and all issues included in OIG's recommendations will be satisfactorily
              resolved between TWC and ACF. If we can provide any additional information to your st aff, please
              let us know.

              Sincerely,



            ~fi;:&_
              Larry-E. Temple
              Executive Director

              Enclosure

              cc: l eon R. McCowan, Regional Administrator, Region VI (Dallas)
                                   Rdoty ·'!\:-I( aS: XOU-7.15 -2CJX9 fi'DDJ :<00-7.15-29XS {Voice) • w ww .tt-X;)sv.orkf\m.:t:.tll'g
                                                            EQu<ll ( )pJ)Mtu nily b upluycr/ Prog.r.un

                                                                             · TEXAs
                                                                 WORKFORCE SOLUTIONS




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A.-06-13-00038)                                                                                                  11
              Texas Workforce Commission (TWC) responses to the Office of Inspector General (OIG), U.S.
              Department of Health and Human Services Recommendations

              Report Number A-06-13-00038

              OIG has recommended that TWC refund to the Federal Government $14,909,333 or work with the
              Administration for Children and Families (ACF) to determine whether any of these expenditures were
              allowable. We do not concur w ith OIG that these expenditures were not for targeted fund activities,
              and we will work with ACF to verify that these reported expenditures are allowable for these
              targeted qual ity activities. We request that OIG not finalize its draft report until TWC has the
              opportunity to work w ith ACF to resolve this matter.

              OIG has recommended that TWC refund to the Federal Government $32,666 for targeted funds that
              w ere incurred before the start of t he funding period . We concur with this recommendation. These
              funds were refunded August 26, 2013. The Texas Department of Family and Protective Services (the
              agency with whom TWC contracted this funding) reports that it has updated (beginning September
              2013) its procedures to include a process which identifies "September Months of Service". This
              additional reconciliation process is completed on a quarterly basis to insure all expenses for
              "September" month of service are paid using the correct Federal Grant year funding or State General
              Revenue.

             OIG has recommended that TWC refund to the Federal Government $25,130 for targeted funds that
             were not liquidated in the required timeframe. We concur w ith this recommendation. These funds
             were refunded August 26, 2013. The Texas Health and Human Services Commission (the agency with
             whom TWC had contracted this funding) reports that it has strengthened processes to identify and
             refund grant awards when the total amount is not expended after the grant period ends.

             OIG has recommended that TWC develop policies and procedures to (1) ensure t hat it claims only the
             enhanced portion of payments made to providers that have exceeded licensing standards, and (2)
             strengthen monitoring of Child Care and Development Fund (CCDF) targeted funds to ensure that
             expend itures are properly obligated and liquidated. We do not concur with OIG that policies and
             procedures should be developed relating to claims dealing with any "enhanced portion" that you
             reference, and we will work with ACF on this. With respect to strengthening monitoring of CCDF
             targeted funds, we concur with this recommendation. To better ensure that CCDF targeted fund
             expenditures are properly obligated and expended, particularly when contracting CCOF grant funds
             with another state agency at the same level of government as outlined in 45 CFR § 98.60(d)(5)(ii),
             TWC plans to use contract periods in future contracts that are more closely aligned w ith the
             availability (obligation and liquidation periods) of the CCDF Funding source as required by 45 CFR
             §98.60, including CCDF Discretionary Funding for targeted funds.

              We provide the following information to support the reasonableness of TWC wor king with ACF to
              determine the reported expenditures are allowable for targeted child care quality activities:

              1. 	 CCDF Quality Activities are: "Activities designed to improve the quality and availability of child
                   care."

                  Since before FY 2000, annual appropriations law has required the use of specified amounts of
                  CCDF funds for targeted purposes (i.e ., quality, infant and toddler care, school-age care and
                  resource and referra l). ACF has not proposed regulations for these provisions during the first 15
                  years that the CCDF Discretionary targeted earmarks for quality, infant and toddler care, school­
                  age care, and resource and referral have been appropriated funds by Congress. TWC assumes

                                                                 1




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A.-06-13-00038)                                12
                 that ACF had not proposed regulations in order to provide states with maximum flexibility and
                 latitude in implementing their child care programs, and in achieving the objectives specified in
                 Federal CCDF regulations at 45 CFR §98.51 Activities to Improve the Quality of Child Care . These
                 regulations provide in subsection (a)(l)(iii) that amounts expended for qua lity activities may
                 include (but are not limited to): "Activities designed to improve the qua lity and availability of
                 child care ..."

                ACF Child Care and Development Fund Program Instruction ACYF-PJ -CC-99·05 dated May 19,
                1999, includes an attached Fact Sheet, entitled "Additional Funds for Resource and Referral,
                School-Age Activities and Activities to Increase the Supply of Quality Care for Infants and
                Toddlers". The Fact Sheet provides: "Suggested Activities: Increasing the Supply of Quality
                lnfant(Toddler Care-- Because activities to increase the supply of quality child care for infants
                and toddlers are required for the first time this FY, we have included two attachments which list
                suggested activities..." The List of Suggestions includes several possible activities, prominently
                including: " ...Set higher reimbursement rates for providers caring for infants and toddlers".

                • The Texas Rising Star Provider certification system is available to child care providers that
                exceed the state's minimum child care licensing standards, and provides levels of certification
                criteria to reward and encourage providers to attain progressively higher certification
                requirements leading to a four-star level. The establishment and expansion of this certification
                system has been a key element in improving child care quality in Texas. Designated child care
                vendors achieving quality standards in Texas (principally including Texas Rising Star Providers,
                also called "enhanced providers") must receive (pursuant to state law) enhanced reimbursement
                rates at least five percent greater than the maximum rate for non-designated vendor-s for the
                same category of child care.

                •    Over the period of 2000-2010, the TWC practice of working with Texas workforce boards to
                report CCDF Discretionary targeted funds for infant and toddler child care in enhanced-provider
                child care has largely been responsible for an increase of 32.6 percent in the number of infants
                and toddlers in higher-quality child care funded with CCDF funds in Texas (an increase from $24.9
                million in FY 2000 to $40.2 million in FY 2010). It is clear that TWC's efforts in investing CCDF
                Discretionary targeted funds for infant and toddler care in enhanced provider child care has
                resulted in a significant expansion of and improvement in the quality and availability of infant
                and toddler child care funded with CCDF funds in Texas.

                •   TWC's practice of working with Texas workforce boards to encourage enhanced-provider
                child care for all categories of children has been a cogent factor leading to an increase of 33.7
                percent in the number of children in all categories in higher-quality CCDF-funded child care in
                Texas (an increase from $63.8 million in FY 2000 to $99.7 million in FY 2010), st rong evidence of a
                major improvement in the quality and availability of subsidized child care in Texas.

             2. 	 OIG's reference to t he "enhanced portion" of child care payments to enhanced-quality child
                  care providers has no basis in statute, regulation, or any program guidance.

                OIG determined to recommend that $14.9 million in FY 2010 CCDF Discretionary targeted
                (quality earmark) funds for Texas were not expended in a way that complied with federal
                requirements and should be refunded. This amount was reported byTWC in the ACF-696 Report
                as Texas Rising Star (TRS) enhanced- quality child care.

                •   While designated child care vendors achieving quality standards in Texas must receive
                enhanced reimbursement rates at least five percent greater than the maximum rate for non­
                designated vendors for the same category of child care, there is no "enhanced portion" of their
                                                               2




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A.-06-13-00038)                               13
                 payments (nor is there an "unenhanced portion"). One might concept ualize a mathematical or
                 financial difference in payments between designated child care vendors and child care vendors
                 that are not designated vendors, but this is nothing more than a hypothetical exercise. There is a
                 differential in rates for designat ed child care vendors and those t hat are not designated child
                 care vendors, but there is no "enhanced portion" of t heir rates or t heir reimb ursements.

                 • TWC staff took issue, in a conference call with OIG on October 31, 2013, the OIG assertion
                 that "only the enhanced portion of the payment made to providers that have met quality
                 requirements qualifies as an activity to improve the quality of child care", which was
                 characterized by OIG staff as the resul t of an OIG General Counsel determination.

                 •    In our DHS-OIG Preliminary Exit Conference November 19, 2013, w e again questioned OIG's
                 reference t o an " enhanced portion" of payments t o child care providers which have achieved
                 child ca re quality standards.

                 • OIG's April 29, 2014 letter repeatedly mentions the "enhanced portion" of payments to child
                 care providers, without ever qualifying or defining its reference, explaining it s reasoning, or
                 providing any pertinent linkage to any ACF statutory or regulatory provision, or any other
                 program guidance. This remains as OIG's assertion only, and has no basis in statute, regulation,
                 or any program guidance.

                 • For child care providers that have met enhanced quality benchmarks, 100 percent of t he
                 direct care payment to t hem is for quality care.

             3. 	 ACF provided specific guidance to TWC that it is an acceptable practice that Texas include 100
                  percent of pavments of enhanced provider child care (i.e., " direct care") as expenditures to
                  improve the qualitv and availability of child care.

                • TWC Finance staff discussed this question w ith ACF Region Vi staff in March 2005, and
                following their conferring with ACF policy staff in the national office, the Region VI staff replied
                that 100% of such enhanced-provider infant/todd ler direct care would be acceptable as a
                qualifying earmark expenditure (i.e., generally on the basis that direct care was not excluded in
                the published inst ructions to st ates).

                •    It is cogent and pertinent that 45 CFR §98.51 Activities to Improve t he Quality of Child Care
                provides in subsection (a)(1)(iii) that amounts expended for quality activities may include (but are
                not limit ed to): "Activities designed to improve t he quality and availability of child care ...".
                Texas' use of CCDF quality targeted funds largely to support Texas Rising Star certified child care
                for infant s and toddler care and other categories of targeted child care has constituted a major
                contribution to improve reimbursement for qua lity child care providers, increasing parenta l
                choice, improving the compensation and t raining of child care staff, and contributi ng to prepare
                children in enhanced child care for later life.

             4. 	 ACF has had abundant opportunities to inform lWC that its practice of including 100 percent of
                 payments of enhanced provider child care as e!CI!enditures to improve the quality and
                 availabllitv of child care could have been unacceptable to t hem. but this has not occurred.


                • The Texas Child care and Development (CCDF) State Plan has since FY 2002 noted that
                enhanced provider "direct care" child care would be included in activities (quality earmark)
                targeted at improving the accessibility, availability, and quality of child care. These State Plans

                                                                3




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A.-06-13-00038)                               14
                 have been reviewed and approved by ACF. The State Plan for Texas for FFY 2010-2011 provided
                 in Part 5: Activities & Services to Improve the Quality and Availability of Child Care, Table 5.1.5
                 Activities to Improve the Availability and Quality of Child Care, a listing and subsequent
                 description of Activities to support a Quality Rating System-- consisting of a description of the
                 tiered reimbursement rate system called the Texas Rising Star Provider certification system ("...a
                 process for improving the quality of child care services provided in Texas..."), and enhanced
                 reimbursement rates for these providers. Also included in this Part is the stated goal of
                 increasing the number of Texas Rising Star Provider certifications each year, and the intention of
                 providing comprehensive consumer education to families on the full range of regulated child care
                 facilities available in the community, including those achieving Texas Rising Star Provider
                 certification. Attachment 5.1.6, in re-stating the Section 809.16(a) Quality Improvement
                 Activities Rules, provides in subsection (d)(3) that in funding quality improvement activities
                 allowable under this section, a workforce board may give priority to child care facilities
                 participating in Texas Rising Star Provider Certification.

                 •    In the Narrative for Targeted Funds submitted by TWC in the fourth quarter reporting period
                 as an attachment to the ACF-696 report, pertaining to all of FY 2010 (and during all years from FY
                 2004 through the current period), it is specified that the State ofTexas used CCDF targeted funds
                 for each of the quality earmark categories: "... The remainder of (school age and resource and
                 referral targeted) funds ... provided direct care subsidies for school age children enrolled with
                 Texas Rising Star (TRS) providers whose facilities and programs meet quality criteria... to support
                 the expansion of services to school age children;" "The infant and toddler targeted funds were
                 expended on direct care subsidies for infants and toddlers enrolled with TRS providers and for
                 the expansion of infant/toddler capacity;" and "...quality expansion targeted funds were spent
                 for ...direct care subsidies for children enrolled with TRS providers".

             5. 	 ACF recognizes that utilizing higher child ca re reimbursement rates is an effective method to
                  achieve higher-quality child care.

                 • ACF reported that Texas was among thirty-two states and two territories which use a
                 "tiered/differential rate" for higher child care quality. ("Child Care and Development Fund;
                 Report of State and Territory Plans, FY 2010-2011," U. S. Department of Health and Human
                 Services, Administration for Children and Families, Child Care Bureau, 2011, ERIC Number
                 ED533821, p. 23).

                 •    In May 20, 2013 CCDF Proposed Rules, ACF states their po!icy preference for higher quality
                 care and lead Agencies providing financial incentives as the way to achieve higher quality: "We
                 recommend that lead Agencies pay higher subsidy rates for higher quality care ...By paying more
                 for quality, Lead Agencies provide a financial incentive for providers to increase the quality of
                 care . The higher rates also help give providers the necessary resources to pay for higher levels of
                 compensation for child care professionals, as well as other components of quality care...". ACF
                 then provides an even more significant observation: "linking enhanced subsidy rates to higher
                 quality is an important component of promoting quality when implemented in conjunction with
                 other ongoing financial supports, assistance, and incentives. In the FY 2012-2013 CCDF Plans,
                 thirty-two States and Territories indicated that they provide tiered or differential rates for higher
                 quality."(Federal Register, Vol. 78, No. 97, 29474).




                                                                4




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A.-06-13-00038)                                 15
             6. 	 ACF provides unequivocally t hat states utilize CCDF targeted qualitv funds to pay higher
                 reimbursement rates for infant and toddler child care.

                 In describing CCDF targeted quality funds ACF states: "Supporting Quality in Child Care for Infants 

                 and Toddlers-Use of Targeted Funds by States and Territories (in FY 2006-2007): ... Highlights of 

                 current activities include... higher reimbursement for the care of infants and toddlers ..." 

                 ["Planni ng for the Child Care and Development Fund: Targeted Funds for Infants and Toddlers," 

                 U.S. Department of Health and Human Services, Administration for Children and Families, Office
                 of Family Assistance, Child Care Bureau, 2007, p4].

             7. 	 ACF has told Congress that higher provider reimbursement rates Is a key feature of stat es'
                  efforts to achieve and sustain higher quality child care and increase the supply of child care for
                  children from priority categories.

                 •    "Provider Reimbursement: ... A growing number of States create incentives for quality
                 improvements and increased supply by paying higher provider rates for meeting quality
                 benchmarks...A large number of States... encourage improved caregiver training and program
                 quality through tiered reimbursement; that is, payment systems that pay more for higher quality
                 care ... States are implementing quality rating and improvement systems. Research confirms that
                 higher quality in child care leads to greater cognitive, language and socia l skills, which are key
                 measures of children's school readiness ... Thirty States pay higher child care subsidy
                 reimbursement rates to child care programs that meet quality standards above minimum
                 licensi ng requirements". ("Child Care and Development Fund (CCDF) Report to Congress for FY
                 2006 and FY 2007, HHS, ACF, p. 7-9).

                 •   Under "Examples of Quality Activities" ACF notes that : "Over half the States have
                 implemented some form of tiered reimbursement to pay higher rates for child care centers and
                 family child care providers that achieve one or more levels of quality beyond the basic licensing
                 requirements." Later in this Report to Congress, ACF provides that: "Thirty States and one
                 Territory imp lemented a tiered reimbursement system whereby providers are paid more if they
                 can demonstrate that they offer higher quality care or as an incentive for serving children from
                 priority categories". ["Child Care and Development Fund (CCDF) Report to Congress for FY 2006
                 and FY 2007, HHS, ACF, p. 18, p. 39].

             8. 	 ACF and GAO have told Congress that States use CCDF targeted quality funds to increase the
                  supply of gualltv child care f or infants and toddlers.

                 •    In its February 2001 Report to Congressional Requesters, GAO explained that: "Of the
                 amounts earmarked for quality-related activities, HHS has set aside $50 million for states to use
                 to increase the supply of quality care for infants and toddlers." ["Child Care: States Increased
                 Spending on Low-Income Families," Report to Congressional Requesters, U.S. General Accounting
                 Office, February 2001, GA0-01-293, p. 8] .

                 • ACF described the purpose of CCOF targeted quality funds to Congressional Appropriations
                 committees: "Since 2000, states have been req uired by CCDBG appropriations language to spend
                 funds on the following three targeted quality activities, including: ... Infant and Toddler Care ­
                 States and t erritories are required to spend a specified amount of funds ($99 million in FY 2010)
                 on activities to improve the quality of child care provided to infants and toddlers. States may use
                 this funding to provide specialized training, technical assistance, and/or expand the supply of
                 child care programs serving infants and toddlers". ["Justification of Estimates for Appropriations

                                                                5




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A.-06-13-00038)                                 16
                 Committees, Fiscal Year 2012," Department of Health and Human Services, Administration for
                 Children and Families. p. SO].




             In Conclusion:


             TWC has striven to develop and manage (with the 28 workforce boards across Texas) an effective
             program to improve the quality and availability of infant and toddler care, child care resource and
             referral and school-aged child care activities, and quality expansion activities funded with CCDF
             Discretionary targeted (quality earmark) funds. TWC administers with the 28 workforce boards a
             large, creditable, and successful CCDF child care and development program . CCDF Discretionary
             targeted funds have been administered properly and effectively since inception of these
             appropriations, and the results of these efforts reflect a significant increase in the availability and
             quality of infant and toddler child care (as well as other categories of child care) funded with CCDF
             funds in Texas. TWC has expended and reported these expenditures accurately, pursuant to
             instructions (as available). TWC received some guidance from ACF in agreement with including 100%
             of direct care payments to enhanced-quality child care providers as CCDF targeted (quality earmark)
             expenditures. And, ACF has approved Texas CCDF State Plans describing these expenditures and has
             received and accepted TWC's ACF-696 reports identifying these expenditures.

             It is well to note that ACF recognizes the crucial role of paying higher rates for enhanced child care
             for infants and toddlers and children from other priority categories. ACF has described that CCDF
             targeted quality funds are used by states to pay higher reimbursement rates for infant and toddler
             care, and that a growing number of states create incentives for quality improvements and increased
             supply by paying higher provider rates for meeting quality benchmarks. The Texas Rising Star
             provider certification system has been crucial in this state for facilitating the improvement of the
             quality and availability of subsidized child care, and the use of CCDF targeted (quality earmark)
             expenditures has been crucial to the growth and expansion of the Texas Rising Star provider
             certification system.

             TWC has followed this practice scrupulously and in good faith, and we look forward to working
             further with ACF to ve rify that our reported expenditures are allowable for these targeted quality
             activities.




                                                                6




Texas Improperly Claimed Some Child Care and Development Targeted Funds (A-06-13-00038)                                17
